        U.S. Department of Labor
        Office of Inspector General
              Office of Audit



       Illinois Migrant Council
            Chicago, Illinois

  National Farmworker Jobs Program
    Grant Number AC-10707-00-55

Performance Audit for the Program Year
   July 1, 2000 through June 30, 2001




                              Audit Report No. 05-04-001-03-365
                              Date Issued: March 17, 2004
Illinois Migrant Council National Farmworker Jobs Program Grant


                                                     Table of Contents

                                                                                                                                   Page
Acronyms.............................................................................................................................. ii
Executive Summary.............................................................................................................. 1
Introduction and Background .............................................................................................. 2
Objectives, Scope and Methodology ................................................................................... 4
Findings and Recommendations
           Finding No. 1 – Program Costs That Should Have Been Allocated
                                    to Indirect Costs ............................................................................ 6
           Finding No. 2 – Administrative Costs That Should Have Been Program Costs ..... 7
           Finding No. 3 – Program Goals Not Met ................................................................. 8
Schedules
           Schedule A – Schedule of Costs Reported ............................................................ 12
           Schedule B – Schedule of Performance Reported ................................................. 13
Appendices
           Appendix A – Glossary ......................................................................................... 14
           Appendix B – Grantee Response to Draft Report .................................................. 17




DOL-OIG Report No. 05-04-001-03-365                               i
Illinois Migrant Council National Farmworker Jobs Program Grant


                                            Acronyms

                CFR     Code of Federal Regulations
                DOL U.S. Department of Labor
                DSFP Division of Seasonal Farmworkers Program
                ESL     English as a Second Language
                ETA     Employment and Training Administration
                FSR     Financial Status Report
                IMC     Illinois Migrant Council
                LLSIL Lower Living Standard Income Level
                MOU Memorandum of Understanding
                NFJP National Farmworker Jobs Program
                OIG     Office of Inspector General
                OMB Office of Management and Budget
                WIA     Workforce Investment Act




DOL-OIG Report No. 05-04-001-03-365             ii
Illinois Migrant Council National Farmworker Jobs Program Grant


                                     Executive Summary
The Office of Inspector General (OIG) performed a performance audit of Department of
Labor (DOL) Grant Number AC-10707-00-55 for Illinois Migrant Council’s (IMC) National
Farmworker Jobs Program (NFJP) for program year July 1, 2000 through June 30, 2001.
IMC reported total costs of $1,279,287 for 693 participants.

Under the authority of the Workforce Investment Act of 1998 (WIA), DOL’s Employment
and Training Administration (ETA) awarded IMC a grant for $1,425,743 to provide training
and services to an estimated 500 eligible migrant and seasonal farmworkers to improve their
living standards and achieve self-sufficiency.

The primary objectives of the performance audit were to determine if the costs reported by
IMC were reasonable, allowable, and allocable; IMC complied with rules and regulations of
the NFJP; and the performance of the NFJP was accurately reported and met the program
goals identified in the grant.

Our audit resulted in the following findings related to costs reported by IMC:

        -   IMC allocated costs totaling $17,378 to the NFJP fund as program costs which
            should have been allocated to the indirect cost pool.
        -   IMC allocated costs totaling $17,559 to the NFJP fund as administrative costs
            which should have been allocated as program costs in the NFJP fund.

In response to our draft report, IMC reallocated the $17,378 from the program cost category
to the indirect cost pool and transferred the $17,559 from administrative to program costs.
Based on these actions, we consider our recommendations related to these findings to be
resolved and closed.

Our audit resulted in the following finding related to program performance:

        -   IMC was unsuccessful in meeting the program goals outlined in the grant.

We recommend the Assistant Secretary for Employment and Training direct IMC to reassess
its operations and outreach program, and implement changes that will allow IMC to meet its
program goals.

In its response to our draft report, IMC stated that it has initiated a system for outreach
planning and will explore incentives for attracting customers to training. ETA needs to
confirm that IMC has implemented incentives or other changes needed to meet its program
goals.


DOL-OIG Report No. 05-04-001-03-365              1
Illinois Migrant Council National Farmworker Jobs Program Grant


                              Introduction and Background

Objective of the National Farmworker Jobs Program

The NFJP provides employment, training, and support services to alleviate chronic
unemployment and underemployment among migrant and seasonally employed
farmworkers. This program is intended to help these workers and their families improve
their living standards and achieve self-sufficiency. Services include skill assessment, job-
search assistance, career planning, and emergency assistance. More intensive services such
as basic education and job training are designed to help individuals acquire skills to obtain
employment outside of farm work or better agricultural jobs. These services are available to
economically disadvantaged migrant or seasonal farmworkers who are engaged in
agricultural work in the United States.

Funds to support these services are awarded competitively to grantees, which provide
services at the local level. The program is currently authorized under WIA and is
administered by the Division of Seasonal Farmworkers Program (DSFP), which is within
DOL’s ETA.

Illinois Migrant Council

IMC was awarded Grant Number AC-10707-00-55 for the NFJP on June 30, 2000, in the
amount of $1,425,743. The grant covered program year July 1, 2000 through June 30, 2001.
The purpose of the grant was to provide training and services to an estimated 500 eligible
migrant and seasonal farmworkers.

IMC is a community based 501(c)(3) nonprofit organization established in 1966,
headquartered in Chicago, Illinois. The organization’s primary mission is promoting
employment, educational, and other opportunities for migrant and seasonal farmworkers and
their families to achieve economic self-sufficiency and stability.

IMC implements its programs and services within the parameters of its federal and state
funding resources. A range of services, with workforce development as the nucleus, are
offered at its regional locations in Illinois including Belvidere, Woodstock, Peoria,
Hoopeston, Carbondale, and Urbandale. IMC is a partner with 12 of the 26 Workforce
Investment Boards in Illinois, which provide a One-Stop Center delivery system to make a
comprehensive range of employment, training, and related services accessible in one
location, as required by WIA.




DOL-OIG Report No. 05-04-001-03-365              2
Illinois Migrant Council National Farmworker Jobs Program Grant


IMC reported NFJP costs of $1,279,287 and provided services to 693 participants during the
audit period. A detail of the costs reported is presented in the Schedule of Costs Reported
(Schedule A), and the performance reported is presented in the Schedule of Performance
Reported (Schedule B).




DOL-OIG Report No. 05-04-001-03-365              3
Illinois Migrant Council National Farmworker Jobs Program Grant


                          Objectives, Scope and Methodology

Objectives

The primary objectives of the performance audit were to determine if:

    •   costs reported by IMC were reasonable, allowable, and allocable under the cost
        principles set forth in the Office of Management and Budget (OMB) Circular A-122;
    •   IMC complied with rules and regulations of the NFJP; and
    •   performance of the NFJP was accurately reported by IMC, in accordance with ETA
        reporting requirements, and met the program goals identified in the grant.

Scope and Methodology

We audited reported costs totaling $1,279,287 and performance for 693 participants under
IMC’s NFJP for the program year July 1, 2000 through June 30, 2001.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included
those established by the Federal Government including the following:

    •   The Workforce Investment Act of 1998 (WIA);
    •   20 Code of Federal Regulations (CFR) Part 669, National Farmworker Jobs
        Program under Title I of the WIA;
    •   29 CFR Part 95, Uniform Administrative Requirements for Grants and Agreements
        with Institutions of Higher Education, Hospitals, and Non-Profit Organizations;
    •   OMB Circular A-122, Cost Principles for Non-Profit Organizations; and
    •   Various Farmworker Bulletins issued by the DSFP.

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing
selected transactions to observe the controls in place. Our testing related to management
controls was focused only on the controls related to our audit objectives of reviewing the
reported cost and performance data and was not intended to form an opinion on the
adequacy of management controls, and we do not render such an opinion.



DOL-OIG Report No. 05-04-001-03-365              4
Illinois Migrant Council National Farmworker Jobs Program Grant


In order to determine compliance with the above-mentioned laws and regulations, we
performed detailed tests of transactions and tested a sample of 209 participants who were
enrolled in the program during our audit period. Our detailed tests of transactions included
both analytical review and substantive tests of accounts. Our testing related to compliance
with laws and regulations was focused only on the laws and regulations relevant to our audit
objectives of reviewing the reported cost and performance data and was not intended to form
an opinion on the compliance with laws and regulations as a whole, and we do not render
such an opinion. Instances of noncompliance are discussed in the Findings and
Recommendations section of this report.




DOL-OIG Report No. 05-04-001-03-365              5
Illinois Migrant Council National Farmworker Jobs Program Grant


                             Findings and Recommendations

Finding No. 1 – Program Costs That Should Have Been Allocated to Indirect Costs

The NFJP fund incurred program costs totaling $17,378 that should have been allocated to
all IMC funds/programs through the indirect cost pool. The improper charges are:

        -   IMC allocates the monthly rental payments for its headquarters in Chicago,
            Illinois, to various funds/programs based on the square footage of the space
            utilized by each fund/program. The common office space, including hallways,
            lunch and copier area, restrooms, and conference room, is allocated between the
            indirect cost pool (approximately 34 percent) and the NFJP fund (approximately
            66 percent). We believe this common space should be allocated entirely to the
            indirect cost pool in the proportion allocated among all the funds/programs. The
            amount allocated directly to the NFJP fund totals $11,589.

        -   IMC purchased equipment, consisting of six office chairs totaling $2,768, a
            computer costing $1,691, and a fax machine costing $259 and charged the total
            amount directly to the NFJP as program costs. Since the equipment was
            purchased for the accounting and administrative functions, the total of $4,718
            should have been allocated through the indirect cost pool.

        -   IMC incurred $200 for the repair of a check-signing machine and $871 for
            accounting software technical support, which were charged directly to the NFJP
            as program costs. Again, these repairs and computer maintenance were for the
            benefit of all the funds/programs. The total of $1,071 should have been allocated
            through the indirect cost pool.

IMC management indicated the aforementioned costs were charged directly to the NFJP
fund because the NFJP is the primary program of IMC.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A,
Part C, Indirect Costs, states the following: “1. Indirect costs are those that have been
incurred for common or joint objectives and cannot be readily identified with a particular
final cost objective. . . .

In addition, 20 CFR 667, Administrative Provisions under Title I of the Workforce
Investment Act, Part 667.220(b)(3) states the following are included in the costs of
administration: “Costs of goods and services required for administrative functions of the
program, including goods and services such as rental or purchase of equipment….”


DOL-OIG Report No. 05-04-001-03-365              6
Illinois Migrant Council National Farmworker Jobs Program Grant


Recommendation

We recommend the Assistant Secretary for Employment and Training direct IMC to:

        -       review its allocation of square footage for the headquarters and allocate
                square footage for common office space entirely to the indirect cost pool for
                program year 2000 and thereafter;
        -       reallocate $17,378 through the indirect cost pool; and
        -       recover the portion of the $17,378 that should have been allocated to other
                programs, based on IMC’s indirect cost plan.

IMC’s Response

IMC reallocated the $17, 378 from the program cost category of the NFJP to the indirect
cost pool.

OIG’s Conclusion

IMC provided documentation that the PY 2000 costs of $17,378 were transferred to the
indirect cost pool, as well as rent costs of $12,913 for PY 2001. We reviewed the
documentation at IMC’s office, including Statements of Indirect Costs, Schedules of Central
Office Rent Expense, and the journal entries transferring the $30,291 from NFJP fund to the
indirect cost pool. We also verified that this amount was adjusted on the March 31, 2003,
Financial Status Report (FSR) because the prior 2 years have been closed out. The $30,291
will be allocated to NFJP and other programs when the indirect costs are closed out for the
appropriate years and the indirect cost rates are closed. Currently, indirect costs are billed
and allocated to the programs based on a provisional rate. The $30,291 was not part of that
allocation.

We consider the recommendations related to this finding to be resolved and closed.


Finding No. 2 – Administrative Costs That Should Have Been Program Costs

The Executive Director attends numerous meetings and spends a significant amount of time
negotiating Memoranda of Understanding (MOU) with IMC’s One-Stop Center partners and
other program-level agreements for the NFJP. A total of $17,559, consisting of $14,338 in
salaries and $3,221 in fringes, was allocated to the NFJP fund during the audit period as
administrative rather than program costs for the Executive Director’s time spent on
negotiating MOUs and other program-level agreements for the NFJP.

IMC was advised while at a training seminar that costs in connection with negotiating
MOUs and program-level agreements for the NFJP should be classified as administrative
DOL-OIG Report No. 05-04-001-03-365              7
Illinois Migrant Council National Farmworker Jobs Program Grant


costs. In addition, the WIA originally required these costs to be classified as administrative
costs.

In the “Summary and Explanation” to the WIA Regulations at 20 CFR Part 667,
Part 667.220 is clarified by stating the following:

        Two types of costs that were specifically previously classified as
        administrative costs, preparing program-level budgets and program plans,
        and negotiating MOU’s and other program-level agreements, are now
        classified as program costs, even though they are often associated with
        general organizational management.

Recommendation

We recommend the Assistant Secretary for Employment and Training direct IMC to
transfer:

        -       $17,559 from administrative to program costs; and
        -       any other costs for negotiating MOUs and other program-level agreements
                incurred subsequent to our audit period to the program cost category.

IMC’s Response

IMC transferred the $17,559 from the NFJP administrative costs to the NFJP program costs
after discussions with DOL about the transfer.

OIG’s Conclusion

IMC provided documentation that the $17,559 was transferred. We reviewed the
documentation at IMC’s office, including journal entries and ledger reports. We also
verified that a revised FSR was filed for PY 2000.

We consider the recommendations related to this finding to be resolved and closed.


Finding No. 3 – Program Goals Not Met

IMC was unsuccessful in meeting the program goals outlined in the grant. Although all
eligible participants received Related Assistance Services, only a small number received
intensive or training services.

Program Year 2000 was a transition period from the former Job Training Partnership Act to
WIA. The transition resulted in a delay in implementation of performance indicators in
DOL-OIG Report No. 05-04-001-03-365              8
Illinois Migrant Council National Farmworker Jobs Program Grant


measurable performance standards. Nevertheless, the grant included the following program
goals for participation and services:

                                                         Program    Program
                                                         Planning     Status
                    Description                                                 Variance
                                                        Summary     Summary
                                                        (Planned)    (Actual)
  Participants Carried Over                                 100         97        (3)
  New Participants                                          400        596        196
  Total Participants                                        500        693        193
  Total Terminations                                        400        580        180
  Total Participants at June 30, 2001                       100        113         13
  Terminated Participants Entering
  Unsubsidized Employment                                    76        26         (50)
  Related Assistance Only Exits                             324       554         230

Two notable goals were for IMC to serve 500 participants and place 76 in unsubsidized
employment in PY 2000. It served 693 participants, 139 percent of planned. However, only
26 participants achieved Entered Unsubsidized Employment, 34 percent of the goal.

As shown in the following table, while the program goals were small, no participants
received Work Experience or Job Readiness Services and Adult Literacy/GED Preparation
services. Further, less than half of the planned goal of participants received Objective
Assessment, Individual Employment Plan, or English as a Second Language services. Thus,
even during this transition year of WIA with no performance indicators other than the
program goals set in the grant, IMC did not meet the expected goals.




DOL-OIG Report No. 05-04-001-03-365              9
Illinois Migrant Council National Farmworker Jobs Program Grant




                                                        Number
                                                                    Number
                                                      Expected to
                Service Provided                                     Served      Variance
                                                       be Served
                                                                    (Actual)
                                                       (Planned)
  Related Assistance Services                             375         693           318
  Intensive Services:
  Objective Assessment                                     125         56           (69)
  Individual Employment Plan                               125         56           (69)
  English as a Second Language (ESL)                       105         46           (59)
  Work Experience                                           5           0            (5)
  Training Services:
  On-the-Job Training                                       7          2             (5)
  Job Readiness Services & Adult
  Literacy/GED Preparation                                  5          0             (5)

Recommendation

We recommend the Assistant Secretary for Employment and Training direct IMC to reassess
its operations and outreach program, and implement changes that will allow IMC to meet its
program goals. IMC should provide additional incentives within the framework of WIA that
will encourage participants to accept available training services under NFJP, which will lead
to unsubsidized employment or recognized credentials.

IMC’s Response

IMC provided examples of quantitative program goals that it accomplished or exceeded, and
noted several obstacles in meeting other quantitative programs goals during the transition to
WIA in Program Year 2000. IMC also identified qualitative program goals necessitated by
the transition year’s changes to the workforce development delivery system, and discussed
its successes in that area.

IMC further explained that it did not have the opportunity to revise quantitative program
goals it set prior to the start of the program year and the final regulations because the
procedures for modifying grant plans were also in transition for NFJP grantees. Had
modification of the grant plan been a feasible option with procedures in place and
communicated, IMC would have been able to pursue changes to its numerical goals.




DOL-OIG Report No. 05-04-001-03-365             10
Illinois Migrant Council National Farmworker Jobs Program Grant


IMC also cited reasons “customers” chose not to enroll in training and take advantage of the
various components of intensive or training services. For many farmworkers, there was a
reluctance to participate in any training programs with new terminology and requirements
that they did not immediately understand; many participants chose to remain in agriculture
seeking WIA assistance to ameliorate emergency situations that was a recognizable,
customary service. Further, IMC stated that providing Related Assistance Services
strengthened the economic self-sufficiency of farmworkers remaining in agriculture, thereby
stabilizing Illinois’ agricultural workforce in the midst of the recession.

IMC noted that providing unsubsidized employment for all 26 participants who enrolled in
intensive and training services and exited in the transition year indicates that IMC performed
successfully in line with the intent of the NFJP to job place participants who chose
employment outside agriculture.

During the transition year of Program Year 2000, IMC maintains that it successfully met its
overall program intent, met or made significant progress in meeting its program goals,
complied with NFJP rules and regulations, and accurately reported in accordance with ETA
reporting requirements.

IMC will continue to assess its operations and outreach activities to meet program goals.
IMC has initiated a system for quarterly outreach planning by its field offices. IMC will
contact DOL about procedures for modification of its grant plans so that modifications may
be developed when factors affect the course of program operation. IMC will explore
incentives within the framework of WIA NFJP to encourage participants to enroll in
Intensive and Training services leading to unsubsidized employment; and will seek more
frequent communications about updated NFJP procedures with DOL when there is a need
for clarification. It is anticipated that these activities will allow IMC to more effectively
meet program goals.

OIG’s Conclusion

Program Year 2000 was a transition year for the NFJP in implementing all the program
changes required by WIA. The transition activities caused IMC to focus on meeting new
program requirements, instead of developing incentives to attract customers that need
training services to obtain unsubsidized employment or recognized credentials.

IMC states that it has initiated a system for outreach planning and will explore incentives for
attracting customers to training. ETA needs to confirm that IMC has implemented
incentives or other changes needed to meet its program goals.




DOL-OIG Report No. 05-04-001-03-365             11
Illinois Migrant Council National Farmworker Jobs Program Grant




                                                                            Schedule A


                                Illinois Migrant Council
                               Schedule of Costs Reported
                 For the Program Year July 1, 2000 through June 30, 2001




                                                                  Percent
                               Function          Reported            of
                                                                   Total
                           Program               $1,032,592        81%
                           Administration           246,695         19%
                           Total                 $1,279,287        100%




DOL-OIG Report No. 05-04-001-03-365             12
Illinois Migrant Council National Farmworker Jobs Program Grant


                                                                              Schedule B


                                 Illinois Migrant Council
                            Schedule of Performance Reported
                 For the Program Year July 1, 2000 through June 30, 2001



                                    Description*                     Totals
                   Participation & Termination Summary
                   Participants Carried Over                           97
                   New Participants                                   596
                   Total Participants                                 693
                   Total Terminations                                 580
                   Total Participants at June 30, 2001                113
                   Summary of Terminations
                   Related Assistance Only                            554
                   Entered Unsubsidized Employment                    26
                   Total Terminations                                 580


* See Glossary on pages 12-14 for definitions of these categories.




DOL-OIG Report No. 05-04-001-03-365             13
Illinois Migrant Council National Farmworker Jobs Program Grant


                                                                                Appendix A


                                             Glossary

Chronic Unemployment

During the 12-month eligibility period, the farmworker experienced or faced periods as an
“unemployed individual” as defined by the Workforce Investment Act.

Core Services

Includes encouragement of participants to access core services of the Illinois One-Stop
Centers; information about their eligibility for One-Stop Center programs and services;
referrals to partners, community resources, and grantee programs; and intake and eligibility
determination.

Disadvantaged

A person whose farmworker family income during the eligibility determination period does
not exceed the higher of either the HHS poverty line or 70 percent of the Lower Living
Standard Income Level that is in effect on the date of application.

Eligible Farmworker

A person who during the 12-month eligibility determination period is a migrant or seasonal
farmworker and whose family is disadvantaged.

Emergency Assistance

Assistance that addresses immediate needs of farmworkers and their families, provided by
National Farmworker Jobs Program grantees. Except for evidence to support legal working
status in the United States and Selective Service registration, where applicable, the
applicant’s self-attestation is accepted as eligibility for emergency assistance.

Individual Employment Plan

The grantee develops this plan in partnership with the participant. The combination of
services chosen with the participant must be consistent with the results of any objective
assessment, responsive to the expressed goals of the participant, and must include periodic


DOL-OIG Report No. 05-04-001-03-365             14
Illinois Migrant Council National Farmworker Jobs Program Grant


evaluation of planned goals and a record of accomplishments in consultation with the
participant.

Intensive Services

Intensive services may include dropout prevention activities, allowance payments, work
experience, literacy and English-as-a-Second language, and other services identified in the
approved grant plan.

Migrant Farmworker

A seasonal farmworker whose agricultural labor requires travel to a job site such that the
farmworker is unable to return to a permanent place of residence within the same day.

National Farmworker Jobs Program

Nationally administered workforce investment program for farmworkers established by the
Workforce Investment Act, Section 167, as a required partner of the One-Stop system.

Objective Assessment

A procedure designed to comprehensively assess the skills, abilities, and interests of each
employment and training participant through the use of diagnostic testing and other
assessment tools.

Participants Carried Over

This includes the total number of participants enrolled in the program on the last day of the
previous program year whose participation continued in the current program year. This
number remains constant for the program year.

Recognized Credential

Attainment related to achievement of educational skills (such as a secondary school diploma
or its recognized equivalent), or occupational skills, by participants who enter unsubsidized
employment.

Related Assistance (Supportive) Services

Services help migrant and seasonal farmworker families cover basic necessities and to
maintain family stability during crisis situations. Services include emergency food vouchers
and food stamp outreach; emergency fuel assistance vouchers for cars and trucks;

DOL-OIG Report No. 05-04-001-03-365             15
Illinois Migrant Council National Farmworker Jobs Program Grant


emergency overnight shelter at motels; personal and family counseling; life skills education;
crisis interventions; translation; and referrals.

Seasonal Farmworker

A farmworker who during the 12-month eligibility determination period has been primarily
employed in agricultural labor that is characterized by chronic unemployment or
underemployment.

Termination

This includes the cumulative number of participants exiting the program for any reason
during the program year. Participants exit the program after the six-month follow-up period
or when it is determined they should no longer receive services funded under the National
Farmworker Jobs Program.

Training Services

These services include on-the-job training; job skills readiness; classroom training including
English-as-a-Second Language; referrals to GED/Adult Literacy; case management;
supportive services during training services; job development and referral; and follow-up.

Underemployment

During the 12-month eligibility period, the farmworker experienced or faced the periods of
temporary, seasonal, or part-time employment associated with agricultural labor when
he/she did not receive a year-round salary.

Work Experience

Planned, structured learning experience that takes place in a workplace for a limited period
of time. Work experience may be paid or unpaid, as appropriate.




DOL-OIG Report No. 05-04-001-03-365             16
Illinois Migrant Council National Farmworker Jobs Program Grant


                                                                                 Appendix B


                           Grantee Response to Draft Report

In addition to the letter and narrative provided on the following pages, the grantee submitted
attachments to demonstrate that the costs in Findings 1 and 2 were transferred.




DOL-OIG Report No. 05-04-001-03-365             17
Illinois Migrant Council National Farmworker Jobs Program Grant




DOL-OIG Report No. 05-04-001-03-365             18
Illinois Migrant Council National Farmworker Jobs Program Grant


                                    Illinois Migrant Council (IMC)
                                              Response to
                          Draft Audit Report for Grant No. AC-10707-00-55
                       Workforce Investment Act (WIA) Title I Section D Part 167
                         National Farmworker Job Training Program (NFJP)
                        Program Year 2000: July 1, 2000 through June 30, 2001


Response to Executive Summary (Page 1)

The Illinois Migrant Council (IMC) made the changes requested in the first two cost findings and addressed the
third finding. It is anticipated that the resolution of the findings will be included in the final audit report.
Attachments are also provided to our response.

z Response to Finding No. 1: IMC allocated $17,378 from the program costs category of the National
Farmworker Jobs Program (NFJP) to the indirect cost pool. (Attachment A.)

z Response to Finding No. 2: IMC transferred $17,559 from the NFJP administrative costs to NFJP program
costs after discussions with DOL about the transfer. (Attachment B.)

z IMC disagrees with the substance and wording of the third finding in the Executive Summary and Draft
Audit Report that disregard the significant program goals met by IMC during Program Year 2000. This was the
transition period for the Workforce Investment Act (WIA) that was permeated with considerable changes in the
workforce development system for services delivery.

IMC was successful in meeting many of the program goals outlined in the grant plan including serving a total
of 693 participants, assisting participants (554) to maintain their economic self-sufficiency within the
agricultural workforce, placing all of the Intensive and Training participants (26) who exited in Program Year
2000 into jobs, providing outreach for enrollment into Intensive and Training services to all 693 WIA eligible
farmworkers who had the opportunity to choose as WIA customers to obtain these services, collaborating with
twelve Local Workforce Investment Boards (LWIB) for Memoranda of Understanding (MOU), developing
partnerships in the one stop delivery system as required by the Act, and coordinating with one stop center
partners. IMC met its overall program intent, met or made significant progress in meeting its program goals,
complied with NFJP rules and regulations and accurately reported in accordance with ETA requirements.

Response to Findings (page 6-11)

Finding No. 1 – “Program Costs That Should Have Been Allocated to Indirect Costs”
(Page 6-7)

IMC allocated the $17,378 from the program cost category of the NFJP to the indirect cost pool. (Attachment
A.)

Finding No. 2 – “Administrative Costs That Should Have Been Program Costs”
(Page 7)

IMC transferred the $17,559 from NFJP administrative costs to NFJP program costs after discussions with
DOL about the transfer. (Attachment B.)




DOL-OIG Report No. 05-04-001-03-365                 19
Illinois Migrant Council National Farmworker Jobs Program Grant


Finding No. 3 “Program Goals Not Met” (Pages 8-11)

IMC disagrees with the substance and wording of the third finding in the Executive Summary and Draft Audit
Report that disregard the significant program goals met by IMC during Program Year 2000. This was the
transition period for the Workforce Investment Act that was permeated with considerable changes in the
workforce development system for services delivery. IMC was successful in meeting many of the program
goals outlined in the grant, including serving a total of 693 participants, assisting participants (554) to maintain
their economic self-sufficiency within the agricultural workforce, placing all of the Intensive and Training
participants (26) who exited in Program Year 2000 into jobs, providing outreach for enrollment into Intensive
and Training services to all 693 WIA eligible farmworkers who had the opportunity to choose as WIA
customers to obtain these services, collaborating with twelve Local Workforce Investment Boards for
Memoranda of Understanding, developing partnerships in the one stop delivery system as required by the Act,
and coordinating with one stop center partners. IMC met its overall program intent, met or made significant
progress in meeting its program goals, complied with NFJP rules and regulations and accurately reported in
accordance with ETA requirements.

Many of the program goals included in IMC’s grant plan are qualitative in nature as necessitated by the
transition year’s changes to the workforce development service delivery system. These program goals are not
covered by the quantitative-based Program Status Summary (PSS). The NFJP program goals for the transition
year of Program Year 2000 included the WIA required development of new program relationships with Local
Workforce Investment Boards that encompassed a challenging and rigorous approval process. This was an
immense undertaking in Illinois involving communications with the Chief Elected Officials of twelve
Workforce Investment Areas covering numerous Illinois counties in which farmworkers resided. This was then
followed by continuing negotiations with representatives from each of the twelve LWIB’s to accomplish a
number of steps, such as education about the NFJP, which led to completing the MOU and becoming a One
Stop Center partner in each area. Because the MOU process was so new and extensive with a multitude of
State requirements, the completion of each of the twelve MOU’s was a major accomplishment for IMC’s
NFJP. IMC participated in the development of Illinois’ WIA Title I Five Year Local and State Plan that
contributed to the negotiations for Memoranda of Understanding with LWIB’s. IMC’s Executive Director was
appointed by the Governor to the State Workforce Investment Board to represent Illinois’ migrant and seasonal
farmworkers – an exceptional accomplishment for an NFJP grantee.

While these program goals were being pursued, IMC was navigating the major directional shifts required by
WIA such as adopting the WIA principles of universality and “customer choice” with a focus on customer
needs and satisfaction, and adapting the statewide migrant and seasonal farmworker service delivery system to
provide WIA defined Core, Related Assistance and Intensive and Training services, and to meet new
recordkeeping and reporting requirements. In contrast to the Job Training Partnership Act (JTPA) which was
familiar to employment and training professionals, farmworker program staff and farmworkers, WIA’s
implementation presented new and additional programmatic components, including six month follow ups and
placement earnings documentation, which needed to be understood very quickly. For many farmworkers, there
was a reluctance to participate in any training programs with new terminology and requirements that they did
not immediately understand; many participants chose to remain in agriculture seeking WIA assistance to
ameliorate emergency situations which was a recognizable, customary service.

In the program areas identified in its grant plan, IMC met program goals or made progress toward meeting
them during a tumultuous period when the entire workforce development system was in transition and there
was a programmatic environment of ongoing flux for both NFJP grantees and states. IMC successfully
provided authorized workforce investment activities including outreach opportunities for farmworkers to
receive National Farmworker Jobs Program Core, Related Assistance, Intensive and Training services at the
same time that it conducted transitional workforce investment activities such as participating in the
development of Illinois’ WIA Title I Five Year Local and State Plan on behalf of the NFJP.

DOL-OIG Report No. 05-04-001-03-365                    20
Illinois Migrant Council National Farmworker Jobs Program Grant


In the third sentence of the last paragraph below the table on Page 8, it is stated that IMC was entirely
unsuccessful in meeting its “expected goals” which overlooks that IMC met its “expected” qualitative program
goals, several of its quantitative program goals and made progress toward its other quantitative program goals.
Since Program Year 2000 was a transitional year, when definitions and guidance were still being developed, it
was to be expected that the unexpected could occur such as variances from goals planned prior to the start of
the transition. The very nature of a transitional period means that programs are passing from one form or stage
to another, often altering planned outcomes with unexpected events occurring. It is disingenuous to convey
both that Program Year 2000 was a transition year and to hold an agency at fault for not having anticipated the
unexpected during the transition. While the Draft Audit Report further states that there were “ no other
performance indicators,” there were many other program features and goals to review in addition to participant
numbers which were met by IMC such as implementing WIA principles, content and structural changes,
compliance with rules and regulations, and accurate reporting.

The Draft Audit Report dismisses the transitional factors that existed which affected IMC’s resources to meet
all its numerical program goals. In the preamble section of the WIA regulations titled “New Name of the
MSFW (WIA Sec. 167 and JTPA Sec. 402 Training Program),” the “Introduction” discussed the difficulties
that NFJP grantees might encounter in participating as new partners in the local one stop system. Nevertheless,
through an extensive process of educating and negotiating, IMC was able to develop partnering relationships
with a number of LWIB’s during the transition year. The Draft Audit Report does not give credence to IMC’s
success in negotiating MOU’s with twelve Local Workforce Investment Boards in locations with migrant and
seasonal farmworkers, nor to the appointment of the IMC Executive Director to the State Workforce
Investment Board. It does not recognize IMC’s success as an active partner in the development of the WIA
Title I Five Year Local and State Plan, its success in formalizing its relationships as a partner within the one
stop delivery system, and its success in coordinating with other one stop center partners on a weekly and often
daily basis to comprehensively serve farmworkers who traditionally have not been served by mainline
workforce development programs (Comprehensive Employment Training Act, JTPA, WIA).

During the transition year when WIA directives were being refined and clarified, there were few
communications issued about how to proceed in regards to interpreting the new definitions for program
activities, implementation and reporting. During the transition year, procedures for modifications of the grant
plans were also in transition for NFJP grantees. As a result IMC did not have the opportunity to revise the
planned program goals for Intensive and Training services or job placements that had been submitted prior to
the start of the program year and the final regulations. Had modification of the grant plan been a feasible
option with procedures in place and communicated, IMC would have been able to pursue changes to its
numerical goals.

Further complicating activities to reach numerical program goals were the recession-related changes in the
labor market and economy such as increasing unemployment, the comprehensive efforts to accommodate
evolving interpretations of WIA, the complex changes in the State’s workforce development system and in the
target population’s needs as well as the choice made by the majority of participants to remain in agriculture
rather than enroll in new training activities. Also occurring during this time were unexpected changes in
migration patterns that resulted in participants residing in rural areas without alternative employment and many
were unable to relocate to other areas with more job opportunities.

The participant numbers referenced in the table on Page 8 show that IMC met its numerical goal of “Related
Assistance Only Exits” to provide Related Assistance services (139%), which strengthened the economic self-
sufficiency of farmworkers remaining in agriculture thereby stabilizing Illinois’ agricultural workforce in the
midst of the recession. A significant program goal in IMC’s grant plan included provision of Related
Assistance services to participants in need to enable them to achieve economic self-sufficiency while
remaining in farmwork - and filling the agricultural industry’s labor needs. Also shown are the number of
“Terminated Participants Entering Unsubsidized Employment.” Although less than planned (34%), IMC

DOL-OIG Report No. 05-04-001-03-365                  21
Illinois Migrant Council National Farmworker Jobs Program Grant


successfully provided unsubsidized employment (100%) for all twenty-six (26) participants who enrolled in
Intensive and Training services and exited in the transition year. This indicates that IMC performed
successfully in line with the intent of the NFJP to job place participants who chose employment outside
agriculture. Follow-up results showed that twenty (20) or 76% of the twenty-six (26) job placements were
retained for six months after employment with nineteen (19) receiving an earnings gain of over $2,475.
Moreover, this success occurred in an environment burdened with numerous complexities involved with
implementing major changes in the WIA transition year.

The nature of the transition year and its impact upon the delivery of services and meeting certain of the
quantitative goals is vastly understated in the Draft Audit Report. Among the unforeseen factors stemming
from the uncertainties surrounding the first year of WIA which impacted attainment of every quantitative
program goal were: the unexpected delay of final regulations and definitions for Intensive and Training
services in the NFJP until after Program Year 2000 had started, unclear directives about implementing the
requirement for partnering with the one stop system, varying degrees of receptivity to the NFJP grantee as a
partner by LWIB’s, and concerns about interpreting new guidelines and definitions including those affecting
the gathering of additional data to meet new reporting requirements. A major change was the requirement
placed on IMC during the transition period that “the NFJP grantee must negotiate with the Board on the terms
of its MOU and the scope of its on-going role in the local workforce investment system” [CFR 669.220 (a)].
Responsibility for implementation of WIA rules and regulations required coordination with twelve different
LWIB’s themselves undergoing difficulties in transitioning to WIA, identifying the LWIB partners and its role
and responsibilities, and setting up one stop centers. Grantee resources needed to be directed toward
negotiating with LWIB’s for MOU’s and re-configuring linkages with partners of the one stop center system.
In this context there was a continuing need and choice expressed by Illinois’s farmworkers for Related
Assistance services to enable them to achieve economic self-sufficiency and stability while remaining in the
agricultural workforce.

During the transition year, emphasis was placed on a “customer-driven” services delivery system. The majority
of Illinois’ farmworkers in need who were outreached in Program Year 2000 sought Related Assistance
services and wished to continue working in the agricultural industry. At the same time that Related Assistance
services were offered, opportunities were given to all 693 participants for enrolling into Intensive and Training
services with job placement as the desired outcome. Fewer than planned farmworkers or “customers” chose to
enroll in the new WIA training program (Intensive and Training services) and to find jobs outside of
agriculture during the transition year; as explained previously, this unexpected reluctance by farmworkers
about WIA Intensive and Training services was not foreseen. IMC did succeed in developing job placements
for all participants who chose to enroll in Intensive and Training services and who exited during the program
year. IMC provided Related Assistance services in keeping with the WIA principle that promotes the presence
of opportunities for clients to make choices about the services available to them. By providing these services,
IMC accomplished the NFJP purpose of stabilization of the agricultural workforce.

The table on Page 9 shows the planned and actual enrollment in specific Intensive and Training activities; this
represents one component of the overall program strategy in the grant plan which included providing a
diversified program with various program activities available to program participants. IMC was successful in
making this diversified program mix available to all participants from which each could choose Intensive and
Training Services. The majority of participants chose not to enroll in classroom training, on the job training or
work experience. While IMC provided Intensive Services to fewer participants than planned (45%), it provided
the opportunity to all Illinois farmworkers, who chose to enroll in NFJP, to obtain Intensive and Training
Services and unsubsidized employment outside of agriculture. The fact that the majority of farmworkers sought
Related Assistance services demonstrates that this service is a real need by farmworkers for them to sustain
their economic self-sufficiency and stability as members of the agricultural workforce in Illinois. The need for
Related Assistance services is evident for economically disadvantaged farmworkers with minimal education,
negligible English language proficiency and very low incomes. Related Assistance services were assessed as a

DOL-OIG Report No. 05-04-001-03-365                  22
Illinois Migrant Council National Farmworker Jobs Program Grant


need by IMC field staff and requested by migrant and seasonal farmworkers in all of IMC’s field locations to
maintain basic necessities for their families.

IMC was successful in providing the opportunity for farmworkers to access and enroll in Intensive and
Training Services when they chose to seek alternative non-agricultural employment by enrolling in Intensive
Services (objective assessment, individual employment plans, or basic skills training such as English as a
Second Language instruction) leading to non-agricultural jobs. The number of farmworkers who chose to leave
the agricultural workforce was minimal in Program Year 2000. Because of the language barriers of
farmworkers many of whom were at preliterate or beginning ESL levels, very few who did enroll in classroom
training (Intensive services) progressed to on-the-job training or chose job readiness instruction (Training
services). During the transition period, delays in communications about interpretations of WIA also affected
NFJP operations and outreach for enrollments in Intensive and Training services.

IMC was not given an opportunity to discuss enrollment goals during the on-site audit; no questions were
raised about the program’s plan for Intensive and Training services enrollments or requests for the reasons for
achieving less than planned goals in this area. On the contrary, during the visit, positive comments were made
about IMC’s fiscal, management information and operations systems. On the occasions when job placement
data was requested, IMC provided its perspective about the difficulty in conducting job placements during the
transition year as previously discussed and the information that all of those participants who chose to enroll in
Intensive and Training services who exited during the program year were job placed.

During the transition year of Program Year 2000, IMC maintains that it successfully met its overall program
intent, met or made significant progress in meeting its program goals, complied with NFJP rules and
regulations and accurately reported in accordance with ETA reporting requirements. In light of the
recommendations made by the Draft Audit Report, IMC will continue to assess its operations and outreach
activities to meet program goals. IMC has initiated a system for quarterly outreach planning by its field offices.
IMC will contact the Department of Labor about procedures for modification of its grant plans so that
modifications may be developed when factors affect the course of program operation. IMC will explore
incentives within the framework of WIA NFJP to encourage participants to enroll in Intensive and Training
services leading to unsubsidized employment; and will seek more frequent communications about updated
NFJP procedures with the U.S. Department of Labor when there is a need for clarification. It is anticipated
that these activities will allow IMC to more effectively meet program goals.




DOL-OIG Report No. 05-04-001-03-365                   23
